No. _______

IN THE
SUPREME COURT OF THE UNITED STATES
___________
WILLIE HUGH WASHINGTON,
Petitioner
v.
UNITED STATES OF AMERICA
Respondent
___________
APPENDIX
___________

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit
Appendix B Judgment of the United States District Court for the Western District
of Texas
Appendix C Judgment of Revocation and Sentence of the United States District
Court for the Northern District of Texas

APPENDIX A

Case: 19-10728

Document: 00515385776

Page: 1

Date Filed: 04/17/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-10728
Summary Calendar

FILED
April 17, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
WILLIE HUGH WASHINGTON,
Defendant-Appellant
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:13-CR-106-1
Before CLEMENT, ELROD, and OLDHAM, Circuit Judges.
PER CURIAM: *
Willie Hugh Washington appeals from the third revocation of his term of
supervised release for his original conviction of conspiracy to possess with
intent to distribute at least five grams of methamphetamine. For the third
revocation, the district court sentenced Washington to three years of
imprisonment and ten years of supervised release.

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

Case: 19-10728

Document: 00515385776

Page: 2

Date Filed: 04/17/2020

No. 19-10728
Washington argues that his sentence was procedurally unreasonable
because the district court treated the revocation as mandatory and failed to
consider drug treatment as an alternative, as required under 18 U.S.C.
§ 3583(d). Additionally, he contends that the district court failed to consider
his argument that his relapses into drug use were triggered by trauma.
Washington did not preserve these issues for appellate review. See United
States v. Mondragon-Santiago, 564 F.3d 357, 361 (5th Cir. 2009).
The record indicates that the district court implicitly considered these
concerns. Moreover, the district court provided a sufficient explanation for his
above-guidelines sentence. See Rita v. United States, 551 U.S. 338, 356-58
(2007); United States v. Fraga, 704 F.3d 432, 439 (5th Cir. 2013). Accordingly,
Washington has not demonstrated that the district court committed plain error
by imposing a procedurally unreasonable sentence. See Mondragon-Santiago,
564 F.3d at 361.
In light of the Supreme Court’s decision in United States v. Haymond,
139 S. Ct. 2369 (2019), Washington also argues that his sentence is
procedurally unreasonable because the mandatory revocation and sentence of
imprisonment required under § 3583(g) were unconstitutional.

However,

because Washington raised this issue for the first time in his reply brief and
because it did not derive from any new arguments raised by the Government
on appeal, we will not consider this issue. See United States v. Rodriguez, 602
F.3d 346, 360 (5th Cir. 2010).
In addition, Washington argues that his above-guidelines sentence was
substantively unreasonable because his sentence of imprisonment was more
than three times the upper end of the advisory guidelines range, because the
district court failed to consider drug treatment as an alternative, because the
total of his current and prior revocation sentences exceeds his original 60-

2

Case: 19-10728

Document: 00515385776

Page: 3

Date Filed: 04/17/2020

No. 19-10728
month sentence, and because his prior revocation sentences of imprisonment
and supervised release were unsuccessful. However, he has not shown that
the district court did not account for a sentencing factor that should have
received significant weight, gave significant weight to an irrelevant or
improper factor, or made a clear error in judgment when balancing the
sentencing factors. See United States v. Warren, 720 F.3d 321, 332 (5th Cir.
2013).

Thus, he has not demonstrated that the district court imposed a

sentence that was substantively unreasonable, plainly or otherwise.

See

United States v. Miller, 634 F.3d 841, 843 (5th Cir. 2011); United States v.
Rodriguez, 523 F.3d 519, 525 (5th Cir. 2008).
AFFIRMED.

3

APPENDIX B

Case 6:09-cr-00111-WSS Document 118 Filed 10/20/09 Page 1 of 6
Case 4:13-cr-00106-A Document 3-2 Filed 06/28/13 Page 1 of 6 PageID 16

Case 6:09-cr-00111-WSS Document 118 Filed 10/20/09 Page 2 of 6
Case 4:13-cr-00106-A Document 3-2 Filed 06/28/13 Page 2 of 6 PageID 17

Case 6:09-cr-00111-WSS Document 118 Filed 10/20/09 Page 3 of 6
Case 4:13-cr-00106-A Document 3-2 Filed 06/28/13 Page 3 of 6 PageID 18

Case 6:09-cr-00111-WSS Document 118 Filed 10/20/09 Page 4 of 6
Case 4:13-cr-00106-A Document 3-2 Filed 06/28/13 Page 4 of 6 PageID 19

Case 6:09-cr-00111-WSS Document 118 Filed 10/20/09 Page 5 of 6
Case 4:13-cr-00106-A Document 3-2 Filed 06/28/13 Page 5 of 6 PageID 20

Case 6:09-cr-00111-WSS Document 118 Filed 10/20/09 Page 6 of 6
Case 4:13-cr-00106-A Document 3-2 Filed 06/28/13 Page 6 of 6 PageID 21

APPENDIX C

Case 4:13-cr-00106-A Document 85 Filed 06/13/19

U.S. DISTRICT COURT
NORTHERN DISTRICT OF TEXAS

Page 1 of 3 PageID
FILED339

1 3 1-:'..di
"'r' 19
Jrr•N
~
IN THE UNITED STATES DISTRICT ~OURT
_.
NORTHERN DISTRICT OF TEXA.
FORT WORTH DIVISION
CLER1'. lJ.S. DISTRICT COURT

__________

BY.----·~------­
Dcpu t y
UNITED STATES OF AMERICA

§
§

vs.

§

NO. 4:13-CR-106-A

§

WILLIE HUGH WASHINGTON

§

JUDGMENT OF REVOCATION AND SENTENCE
Came on to be heard, as contemplated by Fed. R. Crim. P.
32.1, the motion of United States of America to revoke the term
of supervised release imposed on defendant, WILLIE HUGH
WASHINGTON.

After having considered the grounds of the

government's motion, defendant's admissions, argument of counsel,
and statements of defendant and his character witnesses, the
court has determined that the term of supervised release imposed
on defendant should be revoked and that defendant should be
sentenced to a term of imprisonment of 3 years and to serve a 10year term of supervised release upon discharge from prison.
The court finds and concludes that:
(a)

Defendant was given, in a timely manner, written

notice of his alleged violations of the term of supervised
release upon which the motion to revoke is based;
(b)

The motion to revoke the term of supervised

release was served on defendant in a timely manner prior to
the hearing;

Case 4:13-cr-00106-A Document 85 Filed 06/13/19

(c)

Page 2 of 3 PageID 340

There was a disclosure to defendant, and his

attorney, of the evidence against defendant; and
(d)

The hearing was held within a reasonable time.

Other findings and conclusions of the court were stated by
the court into the record at the hearing.

The court adopts all

such findings and conclusions as part of this judgment.
In reaching the conclusions and making the determinations
and rulings announced at the hearing, and as stated in this
judgment, the court considered all relevant factors set forth in
18 U.S.C.

§

3553 (a) that are proper for consideration in a

revocation context.
The court ORDERS, ADJUDGES, and DECREES that the term of
supervised release, as provided by the Judgment of Revocation and
Sentence in this case signed and imposed August 18, 2016, be, and
is hereby, revoked; and
The court further ORDERS, ADJUDGES, and DECREES that
defendant, WILLIE HUGH WASHINGTON, be, and is hereby, committed
to the custody of the United States Bureau of Prisons to be
imprisoned for a term of 3 years, to be followed by a term of
supervised release of 10 years.
The court further ORDERS, ADJUDGES, and DECREES that, while
on supervised release, defendant shall comply with the conditions

2

Case 4:13-cr-00106-A Document 85 Filed 06/13/19

Page 3 of 3 PageID 341

of supervised release set forth in such August 18, 2016 Judgment
of Revocation and Sentence.
The court hereby directs the probation officer to provide
defendant with a written statement that sets forth all the
conditions to which the term of supervised release is subject, as
contemplated and required by Title 18 United States Code
section 3583 (f).
The defendant is remanded to the custody of the United
States Marshal.
The date of imposition of the sentence provided by this
judgment is June 13, 2019.
SIGNED June 13, 2019.
f

Personal information about
attachment to this Judgment

I

/

tl

defendant is set forth on the
Revocation and Sentence.

3

